 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




   YOUNGER NURSING FACILITY
RESIDENTS WITH MENTAL ILLNESS:

      An Unidentified Population




                    JUNE GIBBS BROWN
                     Inspector General

                       JANUARY 2001
                       OEI-05-99-00701
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                              HEADQUARTERS

Emily Melnick, Project Leader
                      Susan Burbach, Program Specialist
Ianna Kachoris, Program Analyst
                    Bambi Straw, Program Specialist
Stacy Thompson, Intern
                             Linda Moscoe, Program Analyst
Kristine Zeabart, Intern
                           Brian Ritchie, Program Analyst




    To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
         Reports are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                            SUMMARY


PURPOSE

          To determine the extent to which younger individuals with mental illness reside in nursing
          facilities.

BACKGROUND

          This inspection is one in a series of Office of Inspector General reports on individuals with
          mental illness in nursing facilities. A companion to this report, “Younger Nursing Home
          Residents with Mental Illness: Pre-Admission Screening and Resident Review
          Implementation and Oversight” (OEI 05-99-00700) examines the admission and mental
          health screenings of Medicaid beneficiaries, ages 22-64, who have a serious mental illness
          and reside in nursing facilities. In that study we found that State implementation of Pre-
          Admission Screening and Resident Review (PASRR) systems, the primary mechanism by
          which individuals with mental illness in nursing facilities are monitored, is inadequate to
          identify whether younger individuals with mental illness are appropriately screened,
          evaluated and placed in nursing facilities.

          This report attempts to ascertain the extent to which younger individuals with mental
          illness reside in nursing facilities. In addition, we wanted to identify the amount of
          Medicaid funds spent to care for this population. The national average for percentage of
          individuals in nursing facilities being treated for mental illness is unknown. A recent
          review of the National Nursing Home Surveys estimates that in 1995, there were
          approximately 12,000 nursing facility residents under age 65 with a primary mental illness
          diagnosis. We believe this figure may not accurately reflect the number of younger
          nursing facility residents with serious mental illness.

          The 1999 Olmstead v. L.C. Supreme Court decision asserted that States are obliged to
          administer their services, programs, and activities to individuals with disabilities in the
          “most integrated setting” appropriate to their needs. Olmstead challenges States to
          prevent and correct inappropriate institutionalization and to review intake and admissions
          procedures to assure that individuals are served in the most integrated setting appropriate.

Federal Data Sources

          The Health Care Financing Administration’s (HCFA) Medicaid Statistical Information
          System (MSIS) collects claims and eligibility data for medical services reimbursed with
          Title XIX funds. Its purpose is to “collect, manage, analyze and disseminate information

Younger Nursing Facility Residents with Mental Illness   i                                OEI-05-99-00701
          on eligibles, recipients, utilization and payment for services covered by State Medicaid
          programs.”

          The HCFA Minimum Data Set (MDS) collects resident assessment information “to aid in
          the survey and certification of Medicare/Medicaid long-term care facilities and to study the
          effectiveness and quality of care given in those facilities.” The MDS is also intended to
          “support regulatory, reimbursement, policy, and research functions.”

          To identify the number of nursing facility residents between the ages of 22 and 64 with a
          severe mental illness, we examined MSIS and MDS data and conducted a 51 State survey.

FINDINGS

We cannot conclusively determine the number of younger individuals with mental
illness that reside in nursing facilities

          After collecting data from MSIS, MDS and our 51 State survey, we cannot conclusively
          determine the number of younger individuals with mental illness that reside in nursing
          facilities. In attempting to identify this population, we encountered data inconsistencies
          including: the dates for which the most recent data was available; the ability to capture
          primary and/or secondary diagnosis; the scope of the data collected; and differing provider
          identification numbers for individual nursing facilities.

          The HCFA data sources do not provide comparable information. Federal MSIS data for
          39 States indicates that 5,745 Medicaid beneficiaries with a primary diagnosis of mental
          illness between the ages of 22 and 64 reside in nursing facilities. Federal MDS data
          indicates that 17,919 younger Medicaid beneficiaries with any diagnosis of mental illness
          reside in nursing facilities in these same States.

          Further, HCFA data and our 51 State survey yield inconsistent results. For example, the
          MDS data indicates that the number of younger nursing facility residents with mental
          illness represents, on average, 1.6 percent of States’ nursing facility populations. Our
          State survey indicates that for 20 States reporting this information, these residents
          represent, on average, 20 percent of their nursing facility populations.

          The MSIS claims data cannot be validated. Only 10 of the 19 nursing facilities we visited
          were identified as having submitted at least one claim for younger nursing facility residents
          with mental illness. None of the 187 individuals whose case files we reviewed were
          identified in MSIS as having a Medicaid claim for nursing facility services, despite listing
          Medicaid as their payer source.




Younger Nursing Facility Residents with Mental Illness   ii                               OEI-05-99-00701
          MSIS cannot be matched with MDS to yield reliable results for research and analysis and
          thus we could not discern pertinent facility level information. We were able to identify
          and match in MDS only 39 percent of nursing facilities that MSIS identified as having at
          least one younger individual with mental illness. For 10 States, none of the nursing
          facilities matched between MSIS and MDS.

Medicaid expenditures cannot be validated

          In order to calculate States’ Medicaid expenditures for younger nursing facility residents
          with mental illness, we had to rely on MSIS and State data. However, we believe that
          MSIS is an inaccurate representation and underestimation of Medicaid expenditures for
          this population. Medicaid expenditure data from MSIS is not validated either by our 51
          State survey or our case file review. Eight States reported that they spent $30.9 million
          total in Federal Fiscal Year 1998 while MSIS indicated that for these eight States, total
          Medicaid expenditures was $15.8 million. Our survey data indicates that, on average,
          States spend $12.3 million per year on younger nursing facility residents with mental
          illness, while MSIS indicates that States, on average, spend $4.9 million per year.

States do not know where younger individuals with mental illness are receiving
long-term care

          Many State mental health authorities (SMHA) responding to our survey reported difficulty
          submitting information regarding the number of individuals with mental illness between the
          ages of 22 and 64 in various types of long-term care facilities. In addition, SMHAs had
          difficulty providing us with expenditure information. Of the 43 SMHAs that responded to
          our survey, only 13 were able to provide us with the complete expenditure information we
          requested.

          State Medicaid agencies also had difficulty reporting expenditure information for all types
          of long-term care facilities and specifically for nursing facilities. Only 15 of 36 State
          Medicaid agencies were able to report Medicaid expenditures for younger nursing facility
          residents with a primary or secondary diagnosis of mental illness. Only nine States were
          able to provide us with complete expenditure figures for younger individuals with a
          primary diagnosis of mental illness.


OTHER CONSIDERATIONS

          Our inspection focuses on younger nursing facility residents with mental illness. However,
          the issues we encountered regarding the validity and reliability of the data raise significant
          concerns about the broader use of both MDS and MSIS data in making and evaluating
          health care policy. Our unsuccessful attempt to identify this population is indicative of a
          larger problem with these Federal data sources. This examination

Younger Nursing Facility Residents with Mental Illness   iii                               OEI-05-99-00701
          questions the use of Federal data sources to accurately yield important demographic,
          utilization, and expenditure information upon which to base policy. Without reliable
          information that enables us to identify populations of individuals requiring particular types
          of services, we cannot assess appropriateness, access and quality of care, nor determine
          the effectiveness of Federal Medicaid and nursing facility policy.

RECOMMENDATIONS

          Recent attention on individuals with mental illness, particularly those in institutional
          settings, increases the need for the Health Care Financing Administration to ensure that
          Federal data systems can respond to both the Administration’s and the public’s inquiry
          into the status of younger nursing facility residents with serious mental illness. The HCFA
          should be able to use both the MSIS, MDS and other related Federal data systems to
          monitor the extent to which nursing facility residents have mental illness and, in turn,
          receive needed mental health treatment.

In order to improve the ability of HCFA and States to produce accurate nursing
facility information and to increase the ability to monitor care and treatment of
Medicaid nursing facility residents with mental illness, we recommend that HCFA:

          C         assign unique provider numbers for long-term care facilities that submit
                    information to Federal data sources;
          C         provide training and clearer coding instructions to improve the ability of nursing
                    home staff and of the MDS instrument to capture mental illness diagnoses;
          C         make MDS and MSIS data available in a timely manner;
          C         require States to report information by age; and
          C         require States to report information by diagnosis.

In response to the Olmstead Supreme Court Decision that requires individuals to
be placed in the “most integrated and least restrictive setting appropriate,” we
recommend that HCFA:

          C	        facilitate the availability of improved MSIS and MDS data to assist States in
                    complying with HCFA’s directive to identify residents and periodically review the
                    services of all residents in Medicaid-funded institutional settings; and
          C	
          C         encourage States to use MSIS and MDS data systems to help demonstrate that the
                    State has “a comprehensive, effectively working plan for placing qualified persons
                    with disabilities in the most integrated setting appropriate.”




Younger Nursing Facility Residents with Mental Illness   iv                                 OEI-05-99-00701
AGENCY COMMENTS

          We received comments from the Health Care Financing Administration (HCFA) and the
          Assistant Secretary for Planning and Evaluation (ASPE). The HCFA concurs with six of
          our seven recommendations. The ASPE provided general comments. Where appropriate
          we changed the report to reflect their comments. The full HCFA and ASPE comments are
          contained in Appendix A. We would like to thank HCFA and ASPE for their assistance in
          conducting this study and for providing us with comments.

          The HCFA believes that “mental health is central to the overall well being of all our
          beneficiaries, including younger nursing facility residents” and that “monitoring these
          residents’ care and treatment and maintaining accurate nursing facility information is
          essential to their well-being.”

          The one recommendation that HCFA does not concur with is amending the MDS to
          distinguish between primary, secondary and tertiary diagnoses. The HCFA proposes an
          alternative to our recommendation that would “provide training and clearer coding
          instructions to improve the ability of nursing home staff and of the MDS instrument to
          capture Mental Illness diagnoses.” We agree with HCFA that providing training and
          improved coding instructions is in accordance with the intent of our recommendation and
          have changed our recommendation accordingly.

          The HCFA expressed concern that the difficulty we experience in finding mental health
          information may be due to the timing of the study. We want to clarify that our
          methodology did not rely on information captured exclusively by an initial MDS
          assessment. Instead, both our reviews of MDS initial and quarterly assessments of
          individual medical files and of the MDS database universe for a six month period would
          have enabled us to capture mental health diagnoses.

          The HCFA reports that they have concerns that our inspection does not accurately depict
          their role in determining State compliance with the Olmstead Decision. What we wanted
          to emphasize was that improved MSIS and MDS data systems can help facilitate States’
          compliance with the Olmstead Decision as part of a multi-faceted approach. We agree
          that the improvements HCFA has committed to making should prove to be beneficial.

          The ASPE expressed concern that the focus of our report, younger individuals with
          serious mental illness, comprise less than 3% of nursing home residents according to the
          1996 Medical Expenditure Panel Survey (MEPS). We believe that there is not a reliable
          source of information to determine this population. More importantly, we continue to
          believe that regardless of the overall size of the national population of younger nursing
          facility residents with serious mental illness, their presence and care in nursing facilities
          warrants HCFA’s specialized attention.


Younger Nursing Facility Residents with Mental Illness   v                                  OEI-05-99-00701
                          TA B L E                       OF             CONTENTS

                                                                                                                                PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


     Information inadequate to identify younger nursing facility residents with mental illness . . . . 9


     Medicaid expenditure data cannot be validated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


     States do not know where younger individuals with mental illness receive long-term care . 14


OTHER CONSIDERATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


APPENDIX

  A. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





Younger Nursing Facility Residents with Mental Illness             vi                                                   OEI-05-99-00701
                                       INTRODUCTION

PURPOSE

          To determine the extent to which younger individuals with mental illness reside in nursing
          facilities.


BACKGROUND

          This inspection is one in a series of Office of Inspector General reports on individuals with
          mental illness in nursing facilities. A companion to this report, “Younger Nursing Home
          Residents with Mental Illness: Pre-Admission Screening and Resident Review
          Implementation and Oversight” (OEI 05-99-00700) examines the admission and mental
          health screenings of Medicaid beneficiaries, ages 22-64, who have a serious mental illness
          and reside in nursing facilities. In that study we found that State implementation of Pre-
          Admission Screening and Resident Review (PASRR) systems, the primary mechanism by
          which individuals with mental illness in nursing facilities are monitored, is inadequate to
          identify whether individuals are appropriately placed and their mental health needs are
          addressed.

De-Institutionalization

          Between 1955 and 1985, many large State mental institutions closed, reducing by 80
          percent States’ institutionalized population of individuals with mental illness. De-
          institutionalization changed the health care delivery system for individuals with mental
          illness and challenged States and communities to identify alternative treatment options for
          individuals with mental illness. The national focus shifted to rehabilitating individuals with
          mental illness in community-based programs, tailored to a wide variety of needs.

          However, in many communities, de-institutionalization accelerated without the creation of
          local programs commensurate with the population requiring placement. According to the
          1999 “Mental Health: A Report of the Surgeon General,” community care and de-
          institutionalization programs were implemented without evidence of effectiveness and
          needed services are not always available.

Individuals with Mental Illness in Nursing Facilities

          The Pre-Admission Screening and Resident Review (PASRR) mandated by the Omnibus
          Budget Reconciliation Act of 1987 targets nursing facility applicants and residents with a


Younger Nursing Facility Residents with Mental Illness   1                                 OEI-05-99-00701
          probable mental illness diagnosis for mandatory psychiatric evaluation. This process was
          designed to divert psychiatric patients from nursing facilities and prevent the inappropriate
          admission and retention of people with mental disabilities, thereby eliminating the use of
          nursing homes for individuals with chronic mental illness. In addition, PASRR was
          intended to identify residents in need of more appropriate acute treatment in hospitals or
          long-term treatment in community based settings,1 and to improve the accountability of
          nursing facilities for the appropriate management of psychiatric disorders in their
          residents.2 We examined the PASRR and the safeguards that monitor the admission and
          mental health treatment of younger Medicaid beneficiaries who have a serious mental
          illness and reside in nursing facilities in a companion report.3

          Nursing facilities have traditionally been “the last refuge” for individuals with mental
          illness. Individuals with mental illness may find themselves in a nursing facility because of
          physical and behavioral problems, the lack of caretakers, or insufficient community
          services, including long-term care.”4 The availability of necessary mental health treatment
          for nursing home residents with mental illness has long been a concern. A 1986 Institute
          of Medicine report suggests that patients with severe mental illness de-institutionalized
          from State mental hospitals were being discharged to nursing homes that could not
          provide the specialized services they needed.”5

          In addition, experts believe that the placement of non-elderly residents with mental illness
          in nursing facilities with elderly residents raises questions regarding the ability of nursing
          facilities to provide appropriate care to both populations. There are significant differences
          between the needs of the geriatric population and younger adults with mental illness who
          reside in nursing facilities. There is also concern regarding the lack of mental health
          training and experience of typical nursing facility staff.

Nursing facility residents with serious and persistent mental illness

          The national average for percentage of individuals in nursing facilities being treated for
          mental illness is unknown. A recent review of the National Nursing Home Survey
          (NNHS) indicates that nationally, in 1995, there were 70,000 residents in nursing



          1
                    Surgeon General Report 1999
          2
                    Journal American Geriatric Society 45:1173-1181, 1997.
          3	
                    “Younger Nursing Home Residents with Mental Illness: Pre-Admission Screening and Resident
                    Review” (OEI-05-99-00700)
          4
                    Psychiatric Services 51:354-358, March 2000. American Psychiatric Association
          5
                    Psychiatric Services, February 1998, Vol 49, No. 3, p. 229-233.

Younger Nursing Facility Residents with Mental Illness    2                                         OEI-05-99-00701
          facilities with a primary mental illness diagnosis.6 The review estimates that there are
          between 8,000 to more than one million residents of nursing facilities with a mental illness,
          including individuals with dementias, depression and schizophrenia -- with and without
          comorbidities. The report emphasizes that further subclassification is needed to produce a
          better estimate since the clinical and social policies to deal with mental illness, with and
          without physical comorbidity, are quite different. The NNHS review estimates that there
          are approximately 12,000 nursing facility residents with severe mental illness under age
          65. 7 We believe this figure may underestimate the number of younger nursing facility
          residents with serious mental illness.

The Olmstead Decision

          The 1999 Olmstead v. L. C. Supreme Court decision asserted that continued
          institutionalization may violate the rights of an individual with mental illness or mental
          retardation under Title II of the Americans with Disabilities Act. The Supreme Court
          interpreted Title II to oblige States to administer their services, programs, and activities
          “in the most integrated setting appropriate to the needs of qualified individuals with
          disabilities.”8

          Title II gives an individual the right to live in the most appropriate community integrated
          setting. States are required to provide community-based services for persons with
          disabilities when the State’s treatment professionals determine that such placement is
          appropriate. States must take into consideration their resources and the needs of other
          people with mental disabilities in making such determinations.

          The Olmstead Decision challenges States to “prevent and correct inappropriate
          institutionalization and to review intake and admissions processes to assure that persons
          with disabilities are served in the most integrated setting appropriate.” In response to the
          Olmstead Decision, the Department issued a letter to all governors in January 2000,
          stating that “no person should have to live in a nursing home or other institution if he or
          she can live in his or her community.” Moreover, the Department said that “unnecessary
          institutionalization of individuals with disabilities is discrimination under the Americans
          with Disabilities Act.”9

          Recently, the Health Care Financing Administration (HCFA) sent a letter to State
          Medicaid Directors because “Medicaid programs play a critical role in making

          6
                    Psychiatric Services 51:354-358, March 2000. American Psychiatric Association.

          7
                    Psychiatric Services 51:354-358, March 2000. American Psychiatric Association.

          8
                    28 CFR 35.130(d)

          9
                    New York Times, February 13, 2000


Younger Nursing Facility Residents with Mental Illness   3                                            OEI-05-99-00701
          community services available.” The HCFA informed the States that under the Court’s
          decision, States are required to provide community-based services for persons with
          disabilities when the placement can be reasonably accommodated, taking into account the
          resources available to the State and the needs of others who are receiving State-supported
          disability services.10 The HCFA has interpreted the ruling to mean that a State waiting list
          for services that moves reasonably well can be considered in compliance with the decision.
          State Medicaid directors are encouraged to periodically review the services of all residents
          in Medicaid-funded institutional settings.

Surgeon General’s Report

          Additional recent attention to the care of individuals with mental illness in nursing facilities
          was brought about by the “Mental Health: A Report of the Surgeon General” which states
          that there are “major barriers that prevent the delivery of appropriate care to residents of
          nursing facilities who have mental illness.”11 Researchers have found that, despite a high
          prevalence of individuals with mental illness residing in nursing facilities, these facilities are
          ill-equipped to meet their needs.12 The report also states that “Medicaid policies
          discouraged nursing facilities from providing specialized mental health services, and
          Medicaid reimbursements for residents have been too low to provide a strong incentive for
          participation by highly trained mental health providers.”13

Funding and State Responsibility for Treating Individuals with Mental Illness

          Historically, States have primary responsibility for funding the treatment of persons with
          mental illness. However, during the past two decades, the role of direct State funding of
          mental health care has been reduced, whereas Medicaid funding of mental health care has
          grown in importance. Despite the Federal Government’s current larger financial
          investment in mental health services, Medicaid and Medicare impose limitations on
          coverage for the long-term care of individuals with mental illness. These coverage
          limitations are intended to reinforce States’ primary responsibility for this population.




          10
                    State Medicaid Director Letter January 14, 2000
          11
                    Mental Health: A Report of the Surgeon General, p. 374
          12	
                    Lombardo, N.E. Barriers to mental health services for nursing home residents. Washington, DC:
                    American Association of Retired Persons, 1994.
          13
                    Surgeon General Report 199, p. 374.

Younger Nursing Facility Residents with Mental Illness    4                                        OEI-05-99-00701
          In particular, Medicaid will not pay for services provided in an institution for mental
          disease (IMD) for individuals ages 22 to 64.14 The Social Security Act defines an IMD as
          “a hospital, nursing facility, or other institution of more than 16 beds, that is primarily
          engaged in providing diagnosis, treatment, or care of persons with mental diseases,
          including medical attention, nursing care and related services.”15 Medicaid will pay for the
          care of individuals with mental illness in nursing facilities where 50 percent or less of the
          facility’s beds were filled by residents with mental illness.16

          According to the Surgeon General’s report, the estimated number of psychiatric residents
          of all ages treated in nursing facilities has significantly increased, based on the record level
          of Medicaid and Medicare bills for treatment of mental illnesses. In 1996, treatment costs
          of individuals with mental illness was $66.7 billion.17 Medicaid comprised 19 percent of
          total expenditures on mental health treatment ($13 billion).18 Care for persons with mental
          illness residing in nursing facilities accounted for $4.7 billion (7.1%) of total mental health
          expenditures ($69 billion).




          14	
                    Social Security Act Section §1905 (h)(I)(C) provides that the 21st birthday is the cut off point for
                    benefits unless the beneficiary is under psychiatric care prior to and following their 21st birthday
                    in which case they may continue to receive covered care until recovery or their 22nd birthday,
                    whichever comes first. For purpose of this report, in order to avoid confusion,, we reviewed
                    individuals ages 22 to 54.
          15
                    Social Security Act Section §1905 (h)(2)(I)
          16
                    1981 Medicaid ruling
          17
                    Health Care Financing Administration (HCFA) 1996 estimates of national health expenditures
          18
                    “Mental Health: A Report of the Surgeon General” 1999

Younger Nursing Facility Residents with Mental Illness      5                                             OEI-05-99-00701
          Mental Health Expenditures by Payer 1996
                                                  Percent of total   MH Expenditures    Percent of all health
                                                 MH Expenditures       (in billions)    care expenditures for
                                                                                            this category

      PRIVATE PAY                                        47%             $32.43                  6%

          Private insurance                              27%             $18.63                  6%

          Out of pocket                                  17%             $11.73                  6%

          Other private pay                              3%               $2.07                  5%

      PUBLIC PAY                                         53%             $37.00                  8%

          Medicaid                                       19%             $13.00                  9%

          State/Local                                    18%             $12.42                 18%

          Medicare                                       14%             $10.00                  5%

        Other Federal (VA, DoD,                2%                         $1.38                  3%
        SAMHSA Block Grants)
    Source: Mental Health: A Report of the Surgeon General


          Federal Budget:
          Substance Abuse and Mental Health Services Administration
              $2.5 billion (FY1999)
          Center for Mental Health Services
                                      $0.5 billion (FY1999) [34%
                                                                                  discretionary, 66% block grants]
          National Institute of Mental Health
                                              $0.9 million (FY1999)
          Medicaid mental health
                                                 $13.11 billion (1996)
          Medicare mental health
                                                 $9.66 billion (1996)

Federal Data Sources

          MSIS

          The purpose of the Medicaid Statistical Information System (MSIS) is to “collect,
          manage, analyze and disseminate information on eligibles, recipients, utilization and
          payment for services covered by State Medicaid programs.” States provide HCFA with
          quarterly computer files containing specified data elements for: (1) persons covered by
          Medicaid (Eligible files); and, (2) adjudicated claims (Paid Claims files) for medical
          services reimbursed with Title XIX funds. These data files are furnished quarterly
          according to the Federal Fiscal Year (FY) schedule. The MSIS is used by HCFA to
          produce Medicaid program characteristics and utilization information for the States. The
          MSIS data files also provide HCFA with a large-scale database of State eligibles and
          services for other analyses. Prior to FY 1999, MSIS was a voluntary program. However,
          in accordance with the Balanced Budget Act of 1997, all claims processed on or after
          January 1, 1999 must be submitted electronically in the MSIS format.

Younger Nursing Facility Residents with Mental Illness         6                                      OEI-05-99-00701
          MDS

          The Federal Minimum Data Set (MDS) was established to “aid in the administration of the
          survey and certification of Medicare/Medicaid long-term care facilities and to study the
          effectiveness and quality of care given in those facilities.” The MDS was also designed to
          “support regulatory, reimbursement, policy, and research functions, and enable regulators
          to provide long-term care facility staff with outcome data for providers’ internal quality
          improvement activities.” Federal MDS information is collected daily from all nursing
          facilities for all residents, regardless of payer source. The MDS assessment cycle, which
          captures information on admission, discharge and when a change in health status occurs, is
          collected quarterly.

SCOPE

          This report evaluates Federal and State data used to identify the mental illness diagnosis of
          nursing facility residents, the numbers of nursing facility residents with a mental illness
          diagnosis, as well as expenditures for this population. We focused our study on Medicaid
          residents of nursing facilities between the ages of 22 and 64 with a “severe and persistent
          mental illness” as their primary or secondary diagnosis. We did not evaluate residents
          with Alzheimers’s disease, dementia or organic brain disorders. We focused on this
          population because we believe there are fundamental features of care and protection
          unique to younger persons with severe and persistent mental illness residing in the nursing
          facilities.

          We produced a companion report, “Younger Nursing Home Residents with Mental
          Illness: Pre-Admission Screening and Resident Review Implementation and Oversight”
          (OEI 05-99-00700) which evaluates the safeguards that monitor the admission and mental
          health treatment of Medicaid beneficiaries, ages 22-64 who have a serious mental illness
          and reside in nursing facilities.


METHODOLOGY

          For the 39 States that submitted Medicaid claims and eligibility information to HCFA’s
          Medicaid Statistical Information System during the 4th quarter of 1998, we attempted to
          identify the number of nursing facility residents between the ages of 22 and 64 with a
          primary diagnosis of severe mental illness that had a Medicaid claim.

          We analyzed the Minimum Data Set from January through June 1999, to discover how
          many Medicaid resident assessments for residents ages 22 to 64 indicated a mental illness
          diagnosis.



Younger Nursing Facility Residents with Mental Illness   7                                OEI-05-99-00701
          We conducted a national survey of 50 State Mental Health, Medicaid and Medicare/
          Medicaid Survey agencies and State Long-Term Care (LTC) Ombudsmen and the District
          of Columbia, henceforth referred to as the “51 State Survey,” to understand the extent to
          which nursing facilities in each State provide care for persons ages 22 to 64 with a major
          mental illness diagnosis from the International Classification of Diseases, 9th Revision
          (ICD-9) codes 293-301, 311, 312. We also received State and Medicaid mental health
          treatment expenditures for this population. In addition, we surveyed States to determine
          in what other types of long-term care settings younger individuals with mental illness
          reside and State expenditures in those settings.

          We received 131 surveys from 50 States:

                    C          43 from State mental health authorities,

                    C          36 from Medicaid agencies,

                    C          29 from State Medicare/Medicaid Survey agencies, and 

                    C          23 from the State LTC Ombudsmen. 


          We made onsite visits to five States — California, Florida, Kansas, Minnesota and
          Pennsylvania to conduct State agency interviews, visit nursing facilities and conduct case
          file review. We selected these States based on:

                    C          the high percentage of residents with a mental illness as their primary or
                               secondary diagnosis in individual nursing facilities as identified by the
                               Federal Online Survey and Certification Reporting System (OSCAR) data;
                    C          their submission of data to MSIS in FY 199819; and
                    C          geographic location.

          In each of the five case study States, we selected four nursing facilities based on the high
          percentage of residents ages 22-64 with a primary or secondary diagnosis of mental illness
          being cared for in that facility, as well as geographic proximity. In the 5 case study States,
          we visited 19 nursing facilities and reviewed 187 resident case files of current nursing
          facility Medicaid residents between the ages of 22 and 64 with a major mental illness
          diagnosis from the International Classification of Diseases, 9th Revision (ICD-9) codes
          293-301, 311, 312. We selected the files to review either through a random sample of a
          specific nursing facility’s population of younger individuals with serious mental illness or
          where time permitted, a review of all residents whose age and diagnosis qualified them to
          be part of our study population.

          We conducted our review in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.



          19
                    All 5 States we visited submitted data to the Federal MSIS as of 1998.

Younger Nursing Facility Residents with Mental Illness     8                                 OEI-05-99-00701
                                        F I N D I N G S

We cannot conclusively determine the number of younger
nursing facility residents with mental illness
Federal Intent for Data Sources

          According to HCFA, the individual paid claims and eligibility information that is captured
          by the Medicaid Statistical Information System (MSIS) are used for program analysis and
          national research on Medicaid populations and expenditures. The HCFA indicates that
          current uses of MSIS data include health care research and evaluation activities; program
          utilization and expenditures forecasting; analyses of policy alternatives; responses to
          congressional inquiries; and matches to other health related databases.20

          The Minimum Data Set (MDS), HCFA's database on nursing facility resident assessments
          was established, in part, to study the effectiveness and quality of care given in that setting.
          The MDS was designed to “support regulatory, reimbursement, policy, and research
          functions” and “provide outcome data for providers.”21

          Using both the MSIS and MDS, we attempted to ascertain the extent to which younger
          individuals with mental illness reside in nursing facilities. In addition, we wanted to
          identify the amount of Medicaid funds spent to care for this population. In order to fill
          any gaps and to validate the data provided by MSIS and MDS, we conducted a 51 State, 4
          agency survey and collected data from our site visit case file review. Specifically, we
          wanted to identify the following characteristics of States’ nursing facility populations:

          C         the total number of younger individuals with mental illness residing in nursing
                    facilities;
          C         the percent of States’ nursing facility populations that are younger individuals with
                    mental illness;
          C         the total number of States’ nursing facilities that care for younger individuals with
                    mental illness;
          C         the percent of States’ nursing facilities that care for younger individuals with
                    mental illness; and




          20
                    HCFA Website
          21
                    HCFA Website

Younger Nursing Facility Residents with Mental Illness   9                                  OEI-05-99-00701
          C	        in nursing facilities that have at least one younger resident with mental illness, how
                    many and what percent (on average) of the nursing facility population are younger
                    individuals with mental illness.

Data inconsistencies

          In using different Federal data sources, we encountered inconsistencies including:

                    C          the dates for which the most recent data was available;

                    C          the manner in which a younger individual with mental illness could be

                               identified, i.e. matching diagnosis to claims or to resident assessments;
                    C          the capability to capture primary and/or secondary diagnosis;
                    C          the scope of the data collected, i.e. for how many States data was available;
                               and
                    C          different provider identification numbers, i.e. the lack of unique provider
                               identifiers for a specific facility.

          The table below highlights the differences between the two data sets and the data captured
          in our survey and case file review.

            Data sources & Data captured
                 Data           Time Period                States        Manner      Capability of capturing
                Source                                    Included         data          mental illness
                                                                         collected         diagnosis

                MSIS           Fourth Quarter                 39         Voluntary        Primary Only
                                   1998

                 MDS           January - June            All 50 States     NF            ALL diagnoses
                                   1999                  & Territories   Reported

                 State           Federal FY                   33           State        Primary AND/OR
                Survey              1998                                 reported           Secondary

               Case file       February/March                 5            OEI           ALL diagnoses
                review              2000                                 collected

Data is inconclusive

          After collecting data from the above identified sources, we cannot conclusively determine
          the extent to which younger individuals with mental illness reside in nursing facilities.
          Federal MSIS data for 39 States indicates that in fourth quarter FY 1998, 5,745 Medicaid
          beneficiaries residing in nursing facilities are between the ages of 22 and 64 and have a
          primary diagnosis of mental illness. This number represents only 32 percent of the
          population of younger individuals with mental illness that are identified in MDS, for the
          same 39 States. The MDS data for January through June of 1999 yields an unduplicated


Younger Nursing Facility Residents with Mental Illness             10                                     OEI-05-99-00701
          count of 17,919 younger nursing facility residents with any diagnosis of mental illness in
          the 39 States. In all States and Territories, an unduplicated count in MDS indicates that
          there were 45,710 younger, Medicaid nursing facility residents with mental illness.

          According to MDS, on average, younger individuals with mental illness represent 1.6
          percent of States’ nursing facility populations. This information is inconsistent with our
          survey data. Twenty State mental health authorities (SMHAs) reported a total of 40,277
          younger nursing facility residents with mental illness. These 20 States report that, on
          average, 10 percent of a State’s nursing facility population is comprised of younger
          individuals with a primary diagnosis of mental illness, and 20 percent is comprised of
          younger individuals with a primary or secondary diagnosis of mental illness. Our case file
          review of 19 nursing facilities indicated that approximately 14 percent of these nursing
          facility residents were younger individuals with a primary or secondary diagnosis of mental
          illness.

          The table below demonstrates that data inconsistencies prevent us from making a
          definitive assessment of the total number of younger nursing facility residents with mental
          illness.

          Total Number and Percent of Younger Individuals with Mental Illness in Nursing
          Facilities
                                                              MSIS22        MDS23          State         Case File
                                                            (34 States)   (39 States)     Reported        Review
                                                                                            Data            (19
                                                                                        (20 States)24    Facilities)

            Total Number of NF Residents                         NR       1,101,599          --            2,712

            Number of Younger Individuals with MI               5,745       17,919        40,277            385
            Residing in NFs

            Percent of NF Residents that are Younger             --         1.6%             --            14.2%
            Individuals with MI

            Average Number of Younger Individuals w/            169          459           2,014             --
            Mental Illness Residing in NFs in a State

            Average % States’ NF Population of                   --         1.6%           10%25             --
            Younger Individuals with Mental Illness
                  NR = Not Requested



          22
                    MSIS data for 34 of the 39 MSIS States. 5 States did not submit this information to HCFA.

          23
                    MDS data for the 39 States that submitted information to MSIS.

          24
                    20 State mental health authorities reporting

          25
                    Unweighted average of percentages reported by 18 State Medicaid agencies


Younger Nursing Facility Residents with Mental Illness     11                                           OEI-05-99-00701
Claims data cannot be validated

          We attempted to validate the MSIS expenditures by identifying in the MSIS claims and
          eligibility files the 19 nursing facilities we visited and the 187 younger Medicaid
          beneficiaries with mental illness whose files we reviewed. Only 10 of the 19 nursing
          facilities were identified as having submitted at least one claim for younger individuals
          with mental illness. To identify individual claims for nursing facility residents, we
          attempted to identify the 187 individuals whose case files we reviewed. None of these
          residents were found in MSIS, even though 111 were admitted to the nursing facility in
          1998 or prior and had indicated Medicaid as their payer source.

Matching data sources yields unreliable results

          Contrary to HCFA’s assertion, MSIS cannot be matched with MDS to yield reliable
          results for research and analysis. As a result, we could not discern valuable facility level
          information. We attempted to identify the average percent of a nursing facility’s total
          population with a mental illness between the ages of 22 and 64. To do so, we planned to
          use MDS to provide the total population of the nursing facility, while MSIS would
          provide us with the number of individuals with mental illness between the ages of 22 and
          64. Then, we planned to cross the provider numbers of MSIS and MDS to identify the
          average percent of a nursing facility’s total population with a mental illness between the
          ages of 22 and 64 for each of the 34 States that submitted information to MSIS.

          However, we were only able to identify and match with MDS 39 percent of nursing
          facilities that MSIS identified as having at least one younger individual with mental illness.
          The percent of nursing facility matches between MSIS and MDS ranges from 0 to 92
          percent in the 39 reporting States. For 10 States, none of their nursing facilities matched
          with the MDS nursing facility identifiers. Therefore, we cannot say with any certainty
          what percent of nursing facility residents, on average, are younger individuals with mental
          illness.

          Our inability to match the providers in these two HCFA data sources can be partially
          attributed to the lack of a unique provider number for each nursing facility. The inability
          to match nursing facility data from MSIS and MDS has ramifications for obtaining reliable
          information regarding nursing homes overall. States frequently assign facilities different
          numbers when submitting information to different Federal data sources. The MSIS
          provider numbers are often different than the MDS provider number assigned to a facility
          for the Minimum Data Set. A given provider may have one number for MSIS, another for
          MDS, another for OSCAR, and yet another for Social Security and Internal Revenue
          Service tax purposes. In addition, States may assign a new provider number when there is
          a change in nursing facility ownership.


Younger Nursing Facility Residents with Mental Illness   12                                OEI-05-99-00701
State survey difficulties

          State survey respondents indicated that they had difficulty providing the information we
          requested regarding younger individuals with mental illness in nursing facilities. Many
          States were unable to respond to our information request because they do not collect or
          sort data by age. In addition, Medicaid and Survey Agencies in 20 States reported that
          they could not distinguish data by primary and secondary diagnosis. Two States also
          indicated that secondary diagnosis is not incorporated into their central database.

          A few States expressed frustration with the MDS system, reporting that it is incomplete
          and that it does not break out diagnosis by primary or secondary diagnosis so that they
          could not use these data to respond to our survey. Three State agencies stated that
          information was unavailable because the MDS is incomplete. One State indicated that
          they would like to use MDS for identifying this population but they know that MDS lacks
          the necessary data.


Medicaid expenditures cannot be validated
          To calculate States’ Medicaid expenditures for younger nursing facility residents with
          mental illness, we had to rely on MSIS and State data -- MDS does not collect
          expenditure information other than resident’s payer source. We believe however, that
          MSIS is an inaccurate representation and underestimation of Medicaid expenditures for
          this population.

          As discussed above, MSIS does not accurately account for the number of younger
          individuals with mental illness who submit a Medicaid claim for nursing facility services.
          In addition, MSIS captures claims and eligibility information matched to a specific
          diagnosis code. A nursing facility claim for per diem might not identify an individual with
          a serious mental illness if it is not his/her primary diagnosis. Therefore, this data
          underestimates State and Federal expenditures for this population.
          Medicaid expenditure data from MSIS is not validated by our survey and case file review.
          There is a discrepancy in the Medicaid expenditures identified through MSIS and in our
          State survey. Eight States that responded to our survey provided Medicaid expenditures
          for younger nursing facility residents with a primary diagnosis of mental illness also
          submitted claims to MSIS. These eight States reported that they spent, in total, $30.8
          million in Medicaid dollars in Federal FY 1998.

          However, this figure is twice the amount indicated by MSIS data for this population in
          these same eight States. The MSIS data indicates that the total Medicaid expenditure for
          the eight States was approximately $15.7 million for Federal FY 1998 ($3.9 million for


Younger Nursing Facility Residents with Mental Illness   13                              OEI-05-99-00701
          4th Quarter 1998). 26 Further, our survey data indicates that on average States spent $3.1
          million for one quarter, or $12.3 million for one year, on younger nursing facility residents
          with mental illness.27 However, MSIS data indicates that, on average, States spend $1.2
          million per quarter on this population, approximately $4.9 million per year.



States do not know where younger individuals with mental
illness are receiving long-term care
State mental health authorities

          State mental health authorities (SMHA) responding to our national survey report that
          individuals with mental illness, ages 22-64, reside in a variety of long-term care facility
          settings. However many of the SMHAs that responded to our survey reported that they
          had difficulty reporting the number of individuals in this specific age group residing in the
          types of facilities outlined in the chart below. Many States could not provide us with this
          information as they do not report by age. Twelve States report that facility level
          information was unavailable. Four States were only able to provide long-term care facility
          health information for all ages.

                    Long-Term Care Options for Younger Individuals with Mental Illness
                                Type of Long-term          States       Residents    Residents
                                  Care Facility           Reporting      (Total)     (Average)

                                       IMD’s                   14        141,825       10,130

                           State Psychiatric Hospitals         27        75,971        2,814

                          Community-Based Facilities           17        44,069        2,592

                           Hospital Psychiatric Wards          11        89,707        8,155

                                 Nursing Facilities            20        40,277        2,014

                                    Other28                 8          34,505          4,313
                       Source: 51 State Mental Health Authority Survey




          26	
                    For all 39 States MSIS data indicates that for 4th Quarter 1998 $41.6 million (or $166.4 million
                    for the year) Medicaid dollars were spent on mental health claims for younger individuals with
                    mental illness in nursing facilities.
          27
                    Thirteen States reporting.
          28
                    “Other” includes assisted living, board and care or personal care homes.

Younger Nursing Facility Residents with Mental Illness    14                                           OEI-05-99-00701
          Many States that responded to our survey were not able to provide all of the expenditure
          information we requested. Of the 43 State mental health authorities that responded to our
          survey, only 13 were able to provide us with expenditures from all of the funding sources
          we requested.29 For these 13 States, the total mental health expenditure is $2.4 billion.
          On average, State funds accounted for 69.2 percent of total mental health expenditures for
          these States.

                         State Mental Health Expenditures Reported by 13 States
                           Funding Source                Total Dollars    Average % of Total MH

                           State Funds                    $1.4 billion           69.2%


                           SAMHSA Block                  $143.9 million           4.8%
                           Grants


                           Specialized Services          $57.8 million            1.5%

                           Other                         $886 million            37.1%

                          Total                      $2.4 billion
                         Source: 51 State Mental Health Agency Survey

Medicaid Agencies

          State Medicaid agencies also had difficulty reporting expenditure information for all types

          of long-term care facilities and specifically nursing facilities. Most State Medicaid

          agencies did not report expenditure information for the types of long-term care facilities

          where younger individuals with serious mental illness may reside. Only 15 of 36 State

          Medicaid agencies were able to report Medicaid expenditure for younger nursing facility

          residents with a primary or secondary diagnosis of mental illness. These 15 States report

          spending a total of $466.3 million in Medicaid funds for this population.


          Only nine States were able to provide complete expenditure information for younger

          individuals with a primary diagnosis of mental illness. In total, these nine States spent

          $426.8 million in Medicaid funds on individuals of all ages with a primary diagnosis of

          mental illness in all types of facilities. The same nine States reported that, in total, they

          spent $29.8 million in Medicaid funds on younger nursing facility

          residents with a primary diagnosis of mental illness and $125.7 million for this population

          in all types of long-term care facilities. 



          29	
                    Of the 43 State mental health authorities that responded to our survey 35 were able to report
                    dollars from State funds, 33 were able to report SAMHSA block grant dollars, and only 22 States
                    were able to report specialized service dollars.

Younger Nursing Facility Residents with Mental Illness        15                                     OEI-05-99-00701
          Medicaid Expenditures for Individuals with a Primary Mental Illness Diagnosis
                         Ages 22-64 in              Ages 22-64 in all           All ages in all
                         nursing facility           long-term care facilities   long-term care facilities

           9 States $29.8 million            $125.7 million                     $426.8 million
          Source: 51 State Survey, 2000, Fiscal Year 1998




Younger Nursing Facility Residents with Mental Illness          16                                          OEI-05-99-00701
                     OTHER CONSIDERATIONS


          Our inspection focuses on younger nursing facility residents with mental illness. However,
          the issues we encountered regarding the validity and reliability of the data raise significant
          concerns about the broader use of both MDS and MSIS data in making and evaluating
          health care policy. Our unsuccessful attempt to identify this population is indicative of a
          larger problem with these Federal data sources. This examination questions the use of
          Federal data sources to accurately yield important demographic, utilization, and
          expenditure information upon which to base policy. Without reliable information that
          enables us to identify populations of individuals requiring particular types of services, we
          cannot assess appropriateness, access and quality of care, nor determine the effectiveness
          of Federal Medicaid and nursing facility policy.




Younger Nursing Facility Residents with Mental Illness   17                                OEI-05-99-00701
                              RECOMMENDATIONS

          Recent attention on individuals with mental illness, particularly those in institutional
          settings, increases the need for HCFA to ensure that Federal data systems can respond to
          both the Administration’s and the public’s inquiry of the status of younger nursing facility
          residents with serious mental illness. In response to both the “Mental Health: A Report of
          the Surgeon General” and the Olmstead Supreme Court Decision, the Administration has
          focused attention on ensuring the appropriate care of individuals with mental illness in
          nursing facilities and the fact that “no person should have to live in a nursing home or
          other institution if he or she can live in his or her community.”

          The HCFA and others should be able to use both MSIS, MDS and other related Federal
          data systems to monitor the extent to which nursing facility residents have mental illness
          and, in turn, receive needed mental health treatment. Instead, the use of Federal MSIS
          and MDS data to identify younger individuals with mental illness is limited by the lack of a
          unique provider identifier to cross and match providers in more than one data source, the
          lack of available data that is timely, the time differential in available data from these two
          sources, and the type of data collected. The MSIS is primarily used by HCFA for
          beneficiary enrollment information, while States use MDS to provide information to State
          survey agencies and individual facilities.

          Effective MSIS and MDS data systems can better ensure that barriers which prevent the
          necessary care provided to all residents of nursing facilities are being systematically
          evaluated and, in turn, eliminated. The HCFA must ensure that MSIS and MDS data
          systems produce comprehensive, consistent, valid, reliable and accurate information in
          order to facilitate the identification of nursing facility residents both within and across
          individual databases in order to provide a comprehensive picture of how nursing facility
          residents are affected by current policies.

In order to improve the ability of HCFA to produce accurate nursing facility
information and to monitor the care and treatment of Medicaid nursing facility
residents, we recommend that HCFA:

          C         assign unique provider numbers to long-term care facilities that submit information
                    to Federal data sources;
          C         provide training and clearer coding instructions to improve the ability of nursing
                    home staff and of the MDS instrument to capture mental illness diagnoses
          C         make MDS and MSIS data available in a timely manner;
          C         require States to report information by age; and
          C         require States to report information by diagnosis.



Younger Nursing Facility Residents with Mental Illness   18                               OEI-05-99-00701
In response to the Olmstead Supreme Court Decision that requires individuals to
be placed in the “most integrated and least restrictive setting appropriate,” we
recommend that HCFA:

          C	        facilitate the availability of [improved] MSIS and MDS data to be used to assist
                    States in complying with HCFA’s directive to identify residents and periodically
                    review the services of all residents in Medicaid-funded institutional settings; and

          C	        encourage States to use MSIS and MDS data systems to demonstrate that the
                    State has “a comprehensive, effective working plan for placing qualified persons
                    with disabilities in the most integrated setting appropriate.”




Younger Nursing Facility Residents with Mental Illness   19                                  OEI-05-99-00701
                             AGENCY COMMENTS

          We received comments from the Health Care Financing Administration (HCFA) and the
          Assistant Secretary for Planning and Evaluation (ASPE). The HCFA concurs with six of
          our seven recommendations. The ASPE provided general comments. Where appropriate
          we changed the report to reflect their comments. The full HCFA and ASPE comments are
          contained in Appendix A.

          The HCFA believes that “mental health is central to the overall well being of all our
          beneficiaries, including younger nursing facility residents” and that “monitoring these
          residents’ care and treatment and maintaining accurate nursing facility information is
          essential to their well-being.” We would like to thank HCFA for their assistance in
          conducting this study and for providing us with substantive and insightful comments.

          The one recommendation that HCFA does not concur with is amending the MDS to
          distinguish between primary, secondary and tertiary diagnoses. The HCFA proposes an
          alternative to our recommendation that would “provide training and clearer coding
          instructions to improve the ability of nursing home staff and of the MDS instrument to
          capture Mental Illness diagnoses.” Specifically, HCFA proposes including a clarification
          of the coding requirements surrounding completion of the Diagnoses section of the MDS
          and in particular, capturing mental illness diagnoses. The Manual revision is planned for
          Spring 2001. Our intent to making changes in the MDS is to enhance nursing facilities’
          ability to capture serious mental illness regardless of the ranking of diagnosis and increase
          nursing facilities’ ability to identify and accurately care plan for younger residents with any
          serious mental illness. We agree with HCFA that providing training and improved coding
          instructions is in accordance with the intent of our recommendation and have changed our
          recommendation accordingly.

          The HCFA expressed concern that the difficulty we experience in finding mental health
          information may be due to the timing of the study. In particular, concern was expressed
          that we were looking for diagnostic information not required to be included in the MDS
          database at the time of our study. We want to clarify that our methodology did not rely
          on information captured exclusively by an initial MDS assessment which before its latest
          iteration may not have included relevant mental health information. Instead, we reviewed
          medical files of individuals with serious mental illness that included both their initial MDS
          assessment and at least two quarterly MDS assessments which would have captured their
          mental illness diagnosis had it been accurately recorded by the nursing facility. In
          addition, our review of the MDS database universe for a six month period allowed us to
          capture both the initial and at least one quarterly MDS assessment which, again would
          have enabled us to capture mental health diagnoses.



Younger Nursing Facility Residents with Mental Illness   20                                 OEI-05-99-00701
          The HCFA reports that they have concerns that our inspection does not accurately depict
          their role in determining State compliance with the Olmstead Decision. What we wanted
          to emphasize was that improved MSIS and MDS data systems can help facilitate States’
          compliance with the Olmstead Decision as part of a multi-faceted approach. We agree
          that the improvements HCFA has committed to making should prove to be beneficial.

          The ASPE expressed concern that the focus of our report, younger individuals with
          serious mental illness, comprise less than 3% of nursing home residents according to the
          1996 Medical Expenditure Panel Survey (MEPS). The MEPS bases this particular figure
          on information gathered from the MDS. Again, as we point out in our report, the MDS is
          not a reliable data source for a variety of reasons. Further, in 1996, when the MEPS was
          released, the ability to capture mental illness diagnosis through the MDS was even more
          limited than the time period we reviewed.

          In addition, ASPE states that the MDS and MSIS are difficult to compare because they
          capture different diagnostic information. We agree with ASPE that MDS and MSIS are
          difficult to compare which contributed to our inability to accurately quantify this
          population. More importantly, we continue to believe that regardless of the overall size of
          the national population of younger nursing facility residents with serious mental illness,
          their presence and care in nursing facilities warrants HCFA’s specialized attention.

          We would like to thank ASPE for providing us with comments.




Younger Nursing Facility Residents with Mental Illness   21                             OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   22           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   23           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   24           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   25           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   26           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   27           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   28           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   29           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   30           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   31           OEI-05-99-00701
                                                                    APPENDIX A
                                                 Agency Comments





Younger Nursing Facility Residents with Mental Illness   32           OEI-05-99-00701
